    NATIONAL CREDIT UNION ADMINISTRATION

              OFFICE OF INSPECTOR GENERAL



           NCUA FINANCIAL STATEMENT AUDITS
                         FOR

                  OPERATING FUND
               SHARE INSURANCE FUND
            CENTRAL LIQUIDITY FACILITY
         COMM. DEVELOPMENT LOAN PROGRAM




              For the year ended December 31, 2000

       Audited Financial Statements               Audit Report Number

            NCUA Operating Fund                       OIG-01-02
  National Credit Union Share Insurance Fund          OIG-01-03
            Central Liquidity Facility                OIG-01-04
Community Development Revolving Loan Program          OIG-01-05




                            March 31, 2001



                        _______________________
                              Frank Thomas
Inspector General
            NATIONAL CREDIT UNION ADMINISTRATION

            AUDIT OF THE 2000 FINANCIAL STATEMENTS


                              TABLE OF CONTENTS




                                                                Page/Tab
Executive Summary                                                  1

Observations and Recommendations                                   2

Audit Report Follow-up                                             9

Financial Audit Reports:

       NCUA Operating Fund (OIG-01-02)                             Tab 1

       National Credit Union Share Insurance Fund (OIG-01-03)      Tab 2

       Central Liquidity Facility (OIG-01-04)                      Tab 3

       Community Dev. Revolving Loan Program (OIG-01-05)           Tab 4
                               EXECUTIVE SUMMARY


                               The National Credit Union Administration (NCUA) Office of
 PURPOSE AND SCOPE Inspector General contracted with the independent public
accounting firm of Deloitte & Touche to perform the financial statement audits of the NCUA
Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Program, for the year ended December 31, 2000.

The purpose of the audits is to express an opinion on whether the financial statements are fairly
presented. The independent firm also reviewed the internal control structure and evaluated
compliance with laws and regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States.
The NCUA Office of Inspector General reviewed the independent firm’s workpapers, as part
of its oversight function.

 FINANCIAL STATEMENT CONTRACT Deloitte & Touche contracted with the
                                                   Inspector General in May 1996 to perform
the financial statement audits mentioned above. The contract was for 1996, with four option
years. The Assistant Inspector General for Audits is the contracting officer’s technical
representative for this contract.

AUDIT RESULTS             Deloitte & Touche expressed unqualified opinions, stating that the
                          financial statements present fairly, in all material respects, the financial
position of the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility,
and the Community Development Revolving Loan Program, at December 31, 2000, and the
results of operations for the year then ended.

Although Deloitte & Touche does not express an overall opinion of the Funds’ compliance with
laws and regulations, their testing of compliance did not disclose any significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses in their
review of the Funds’ internal control structures pertinent to financial reporting. However, during
the performance of the audit, we developed the following recommendations related to internal
control over financial reporting and certain observations and recommendations on other
accounting, administrative, and operating matters.




                                                  1
             OBSERVATIONS AND RECOMMENDATIONS



SAP SECURITY AND CONTROL WEAKNESSES

Observation:

The Office of Inspector General (OIG) recently completed a SAP Security and Control Review
for SAP R/3, version 4.6b. The following significant issues were noted during the review:

    •   NCUA does not currently maintain sufficient SAP technical and functional
        documentation;
    •   Individuals have excessive access to the “SAP_ALL” privilege and inappropriate
        access to SAP security administration functionality;
    •   NCUA is not performing sufficient SAP security monitoring;
    •   NCUA does not have adequate SAP Change Control procedures (currently all SAP
        contractors and SAP support personnel have the ability to make changes to the
        production SAP application); and,
    •   SAP security does not systematically enforce segregation of duties within the Materials
        Management, Financial Accounting, and Controlling modules.



If users are granted access beyond the minimum level necessary to perform their job functions,
segregation of duties may be compromised. This could result in unauthorized or invalid
transactions or in loss of data, assets, or other resources.

Recommendation:

The Office of the Chief Information Officer (OCIO) has reported that many of the noted control
weaknesses were addressed during the recent upgrade of SAP R/3 to version 4.6c. The
OCIO will address the remaining issues in the near future and the Office of Inspector General is
monitoring their progress.

WINDOWS NT SECURITY

Observation:

NCUA currently is in the process of upgrading its network operating system from Windows NT
to Windows 2000. However, the servers that support the SAP financial application still reside
on a separate Windows NT domain. Currently, there are no plans to upgrade these servers to
Windows 2000 and incorporate them into the new Windows 2000 Active Directory structure.


                                               2
During a review of the Windows NT Account Policy, which enforces user authentication
settings for the Windows NT Domain that supports SAP (domain name: SAP), we noted the
following:

    •   Passwords are not set to expire
    •   Users are allowed to use blank passwords
    •   No minimum password length is required
    •   Account lockout settings are not enabled
    •   Password history requirements are not established

Additionally, we were informed that OCIO personnel and contractors that access this Windows
NT domain are sharing the system-delivered domain administration account, “Administrator.”
This account has full access to all of the files and data stored within the domain. Allowing
individuals to share this account prevents NCUA from assigning accountability to individuals for
actions performed using the account.

Recommendation:

We recommend that NCUA:

    •   Enable the following Windows NT Account Policy for the SAP domain that is still
        running under Windows NT:
        -   Password expiration should be set to occur every 120 days;
        -   Minimum password length should be set to at least six characters;
        -   Account lockout should occur after three consecutive, unsuccessful login attempts;
        -   Reset account lockout counter after 99,999 minutes (maximum value);
        -   Lockout duration should be set at “Forever”;
        -   Minimum password age should be set to at least one day; and
        -   Retention of previous passwords should be set to at least five.
    •   Disable the system-delivered account “Administrator” and assign unique user accounts
        to all domain users. These user accounts should be assigned to groups that only grant
        them the minimal level of access that they require to perform their job responsibilities;
        and,
    •   Develop a plan to migrate the SAP domain from Windows NT to Windows 2000 and
        incorporate it into the new Windows 2000 Active Directory. Windows 2000 will offer
        significantly enhanced user authentication settings that are not offered by Windows NT.

SAP INFORMATION TECHNOLOGY CONTROLS



                                                3
Observation:

Currently NCUA’s SAP System Administrator controls many of the key aspects of information
technology support and control that are associated with the SAP financial application. In
addition to controlling SAP application-level security, this individual also controls the Windows
NT security administration, Microsoft SQL database administration, disaster recovery planning,
back ups, and server and operating system support specific to the SAP financial application.

By allowing one individual to be primarily responsible for these functions, NCUA is at risk that
these information technology support functions could not be performed effectively in the
absence of the SAP System Administrator. This also represents a significant segregation of
duties issue. The SAP System Administrator has the ability to access and/or modify every
component of the SAP financial application.

Recommendation:
We recommend that NCUA either train other OCIO personnel to perform, or reassign
responsibility for performing, information technology support for the technologies and
infrastructure associated with SAP. This should result in an increased segregation of duties and
reduce the dependency of NCUA on the SAP System Administrator to perform these key
information technology support roles for the SAP financial application.

NETWORK CONNECTIVITY

Observation:

Single points of failure have not yet been eliminated in the design and configuration of the
NCUA wide-area network. If the frame relay service, which provides the only means of
network connectivity to NCUA regional offices, becomes unavailable, there are no alternate
network connections between the NCUA headquarters and the regional offices. Without
secondary connectivity, the regional offices will not be able to access critical application systems
and data that reside on the servers at NCUA headquarters.

Recommendation:
We are aware that NCUA has plans to redesign the telecommunications architecture of its
wide-area network during fiscal year 2001. As part of this redesign, NCUA will implement
ISDN back-up network connections to all of its regional offices. We endorse this effort and
encourage NCUA to complete the wide-area network redesign in an expeditious manner.




                                                 4
EMPLOYEE RELOCATION ADVANCES

Observation:

We found $105,625 of employee relocation advances that ranged in age from 250 days from
the original advance to five years. Based on NCUA's internal advances policy, which is
predicated on the Federal Credit Union Act, the Competitive Equality Banking Act, and the
Federal Travel Regulations, “the employee is expected to repay the advance as soon as
possible after completion of the various phases of the move, but no later than 120 days after
completion of routine relocation travel expenses.” In addition, “the CFO office should be
reviewing these items at least annually to identify possible errors or cases where relocation
expenses have been claimed without reducing the outstanding travel advance balance.”

Recommendation:

The NCUA Office of the Chief Financial Officer should review employee relocation advances
at least quarterly to ensure timely submission of required expense reports and recovery of
unspent amounts.

COMMUNITY DEVELOPMENT REVOLVING LOAN FUND (CDRLF) LOANS

Observation:

A check request for a loan was submitted by the CDRLF and the U.S. Treasury prepared the
check on December 11, 2000. However, the loan package (consisting of the loan document
and the check) was not issued to the recipient until January 3, 2001. We understand that the
package was not released because the appropriate staff person was on leave. The check was
properly secured during this time; however, the loan recipient did not have the benefit of the
funds during the period.

Recommendation:

Particular care should be given at the close of accounting periods to ensure that all transactions
are processed on a timely basis and recorded in the proper period. Personnel should be cross-
trained to ensure that critical duties are conducted despite scheduled leave.




                                                5
CURRENT STATUS OF PRIOR-YEAR COMMENTS

CHANGE CONTROL PROCEDURE

NCUA has a process in place to document, track, and approve changes to applications,
networks, and access security. However, this process is not formally documented. Without
proper and consistent change control procedures, changes to the various systems may be made
without specific approval from managers. As a result, errors may be introduced in the
production environment causing unreliable processing results or unintentional loss or alteration of
data.

Status:

NCUA has not established a formal application change control function for its SAP financial
application. Currently, all SAP contractors and SAP support personnel have the systematic
ability to make changes to the production SAP application.

Further Recommendation:

We recommend that NCUA establish a formal SAP change control function, whereby
individuals not involved in the SAP application development process are the only individuals
with the systematic access necessary to modify the production SAP financial application.

ADMINISTRATION AND SECURITY PROCEDURES

Observation:
An overall information security policy, including security standards, has been defined for
NCUA’s computing environment. These standards include password restrictions, account
lockouts, userid/passwords for all logins, and general access controls, virus protection, and
Internet/Email usage. However, NCUA does not have formal procedures that document the
administration, configuration, and security authorization processes for its network and SAP
environments. Formal security and system administration procedures help to ensure the
consistent application of company security policies, reliable systems processing and adequate
safeguarding of the company’s information assets. Without these formal procedures, the
organization runs the risk of not being able to effectively configure, administer and monitor their
systems environment in the manner desired by management.

Status:

NCUA has enhanced its Information Technology Security Program. Additionally, within its Hi-
Tech 2000 Handbook, NCUA has outlined several end user policies regarding information
security and protection. However, we were informed that employees are not required to sign
an acknowledgement of the policies outlined in the Hi-Tech 2000 Handbook.




                                                 6
Comprehensive end user information security policies are intended to make employees aware of
their responsibilities for ensuring the security of all NCUA information resources. Enhancing its
current policies and requiring user acknowledgement of these policies should increase NCUA’s
assurance that information resources are properly utilized and protected.

Further Recommendation:

We recommend that NCUA require employees to complete written acknowledgements of the
information security policies outlined in the Hi-Tech 2000 Handbook.

FIXED ASSETS

Observation:

NCUA maintains two Asset Master files in the fixed asset and inventory modules within the
accounting system. The serial number, location of the asset and the responsible party are
recorded in the inventory module Asset Manager. The detail dollar amount for each fixed asset
is recorded in the fixed asset module Asset Manager, which agrees with the amounts recorded
in the general ledger. The two Asset Manager files have not been reconciled. As a result, there
is no audit trail to match the fixed assets observed during a physical count with the recorded
fixed assets in the general ledger.

The NCUA Property Management Procedures [NCUA 8054 (M 1702)] were not being
followed in the Washington office. Under Section 1 – Identification of Property, each item of
nonexpendable agency property is to be identified by a property control serial number, which is
affixed by means of a metal tag. We observed that a number of fixed assets were missing tags.
Under Section 4 – Inventory of Property, an inventory of property is to be performed at least
once annually. We noted that an inventory of the fixed assets had not been performed in 1999.

Recommendation:
A complete and accurate physical inventory should be performed at least annually of all
nonexpendable agency personal property in the Washington office in accordance with Section 4
of the NCUA Property Management Procedures. The physical inventory taken should then be
reconciled with the fixed asset module Asset Manager.

Status:

We found NCUA had conducted an inventory of fixed assets in 2000 and reconciled the
inventory with the fixed asset module.




                                               7
ACCRUALS

Observation:

During our testing of the adequacy of year-end accruals, we noted several instances where
invoices for fixed asset items received prior to year-end had not been accrued. Due to the
decentralized nature of the processing of accounts payable activity at the department level, there
may have been inconsistent application of the guidelines provided for the year-end processing.

Recommendation:
We recommend that the instructions for the year-end processing of vendor invoices and other
transactions for which accruals may be required be clarified and expanded as necessary to
ensure consistent implementation.

Status:

The OCFO issued clear instructions for the year-end processing of vendor invoices and other
transactions requiring accruals.




                                                8
                       AUDIT REPORT FOLLOW-UP


NCUA should respond to this audit report and accompanying recommendations in accordance
with the NCUA Audit Follow-up Instruction (1910.6, May 16, 1995).




                                           9
NATIONAL CREDIT UNION ADMINISTRATION OPERATING
FUND

Financial Statements for the Years Ended
December 31, 2000 and 1999, and
Independent Auditors’ Reports




                                           Tab 1: 1
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund (the Fund) as of December 31, 2000 and 1999, and the related statements of revenues, expenses, and
changes in fund balance, and of cash flows for the years then ended. These financial statements are the
responsibility of the National Credit Union Administration Operating Fund’s management. Our responsibility is
to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Operating Fund as of December 31, 2000 and 1999, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 16,
2001, on our tests of the National Credit Union Administration Operating Fund’s compliance with certain
provisions of laws, regulations, contracts and grants, and our consideration of its internal control over financial
reporting. That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our audit.




February 16, 2001




                                                     Tab 1: 2
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


ASSETS                                                          2000       1999

  Cash and cash equivalents                                   $ 9,923    $ 12,695
  Due from National Credit Union Share
    Insurance Fund (Note 4)                                       938      1,618
  Employee advances                                               663        816
  Other accounts receivable                                       153        258
  Prepaid expenses                                                429        105
  Fixed assets - net of accumulated depreciation
    and amortization (Note 3)                                  41,197     38,704
  Employee residences held for resale                              87        452

TOTAL ASSETS                                                  $ 53,390   $ 54,648

LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accounts payable                                            $ 3,621    $ 4,109
  Obligations under capital leases (Note 5)                     3,860        -
  Accrued wages and benefits                                    4,492      4,390
  Accrued annual leave                                          6,668      5,860
  Accrued employee travel                                         767        828
  Notes payable to National Credit Union
    Share Insurance Fund (Note 4)                              31,748     33,161

             Total liabilities                                 51,156     48,348

COMMITMENTS AND CONTINGENCIES (Notes 5 and 8)

FUND BALANCE                                                    2,234      6,300

TOTAL LIABILITIES AND FUND BALANCE                            $ 53,390   $ 54,648


See notes to financial statements.




                                                   Tab 1: 3
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


                                                        2000        1999

REVENUES:
  Operating fees                                      $ 57,752    $ 53,884
  Interest                                               1,719       1,426
  Other                                                    243         258

              Total revenues                           59,714      55,568

EXPENSES (Note 4):
  Employee wages and benefits                          47,054      42,674
  Travel                                                6,951       5,402
  Rent, communications, and utilities                   1,671       1,839
  Contracted services                                   2,744       2,096
  Other                                                 5,360       5,308

              Total expenses                           63,780      57,319

(DEFICIENCY) OF REVENUES OVER EXPENSES                  (4,066)     (1,751)

FUND BALANCE, BEGINNING OF YEAR                         6,300       8,051

FUND BALANCE, END OF YEAR                             $ 2,234     $ 6,300


See notes to financial statements.




                                        Tab 1: 4
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)

                                                                        2000        1999
CASH FLOWS FROM OPERATING ACTIVITIES:
 Deficiency of revenues over expenses                                 $ (4,066)   $ (1,751)
 Adjustments to reconcile deficiency of
    revenues over expenses to cash provided by
    operating activities:
    Depreciation and amortization                                       3,637       3,197
    Loss on disposal of employee residences held for resale                64          77
    Miscellaneous allowances                                               (8)         10
 (Increase) decrease in assets:
    Due from National Credit Union
      Share Insurance Fund                                                680         511
    Employee advances                                                     153          49
    Other accounts receivable                                             105        (145)
    Prepaid expenses                                                     (324)         59
  (Decrease) increase in liabilities:
    Accounts payable                                                     (472)         45
    Accrued wages and benefits                                            102        (474)
    Accrued annual leave                                                  808         908
    Accrued employee travel                                               (61)         93

              Net cash provided by operating activities                   618       2,579

CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchases of fixed assets and employee residences held for resale    (1,651)     (1,884)
 Proceeds from sale of employee residences held for resale                810         677

              Net cash used in investing activities                      (841)     (1,207)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Repayments of notes payable                                          (1,413)     (1,413)
 Principal payments under capital lease obligation                     (1,136)        -

              Net cash used in financing activities                    (2,549)     (1,413)

NET DECREASE IN CASH AND CASH EQUIVALENTS                              (2,772)        (41)

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                           12,695      12,736

CASH AND CASH EQUIVALENTS, END OF YEAR                                $ 9,923     $ 12,695


SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION:
  Interest paid                                                       $ 1,933     $ 1,862

SUPPLEMENTAL DISCLOSURE OF NONCASH
  FINANCING ACTIVITIES:
  A capital lease obligation of $4,987 was incurred when the
    fund entered into a lease for new equipment.


See notes to financial statements.




                                                      Tab 1: 5
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2000 AND 1999


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the Fund) was created by the Federal Credit
     Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury under
     the management of the National Credit Union Administration Board for the purpose of providing
     administration and service to the Federal Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents - The Federal Credit Union Act permits the Fund to make investments in United
     States Government securities or securities guaranteed as to both principal and interest by the United
     States Government. Cash equivalents are highly liquid investments with original maturities of three
     months or less. All investments in 2000 and 1999 were cash equivalents and are stated at cost, which
     approximates market.

     Depreciation and Amortization - Building, furniture and equipment, equipment under capital leases, and
     leasehold improvements are recorded at cost. Depreciation and amortization are computed by the straight-
     line method over the estimated useful lives of the building, furniture and equipment, and the shorter of the
     estimated useful life or lease term for leasehold improvements. Estimated useful lives are forty years for
     the building and three to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees - The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year.

     Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

          Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund
          (NCUSIF), employee advances, other accounts receivable, accounts and notes payable to NCUSIF,
          and other accounts payable are recorded at book values, which approximate the respective fair
          market values.

     Use of Estimates - The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.


                                                   Tab 1: 6
3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                    2000          1999
       Office building and land                                                  $ 42,383      $ 42,246
       Furniture and equipment                                                     16,588        22,431
       Equipment under capital lease                                                4,987          -

                      Total                                                        63,958        64,677
       Less: Accumulated depreciation and amortization                            (22,761)      (25,973)

       Fixed assets - net                                                        $ 41,197      $ 38,704

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board derived from an
     estimate of actual usage. The allocation factor was 50% to NCUSIF and to the Fund for 2000 and 1999.
     On November 16, 2000, the NCUA Board voted to increase the allocation factor to NCUSIF for 2001
     from 50% to 66.72%. The cost of the services allocated to NCUSIF, which totaled approximately
     $63,780,000 and $57,319,000 for 2000 and 1999, respectively, is reflected as a reduction of the
     corresponding expenses in the accompanying financial statements.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the purchase of
     a building. Interest costs incurred were approximately $76,000 for 2000 and $74,000 for 1999. The
     outstanding principal balance at December 31, 2000 and 1999, was $1,242,000 and $1,314,000, respectively.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
     note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a new building.
     Interest costs incurred were approximately $1,857,000 and $1,788,000 for 2000 and 1999, respectively.
     The note payable balance at December 31, 2000, was approximately $30,506,000.

     The above notes require principal repayments as follows (in thousands):

                                                                      Unsecured Secured
                                                                      Term Note Term Note         Total
       2001                                                            $    72    $ 1,341      $ 1,413
       2002                                                                 72      1,341        1,413
       2003                                                                 72      1,341        1,413
       2004                                                                 72      1,341        1,413
       2005                                                                 72      1,341        1,413
       Thereafter                                                          882     23,801       24,683
                                                                       $ 1,242    $ 30,506     $ 31,748

     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2000 and 1999 were 5.95% and 5.52%, respectively. The interest rate at
     December 31, 2000, was 6.05%.



                                                  Tab 1: 7
5.   LEASE COMMITMENTS

     Description of Leasing Agreements - The Fund has entered into a number of lease agreements with
     vendors for the rental of office space as well as the lease of office equipment that includes laptops,
     printers, monitors, and copiers.

     Operating Leases - The Fund leases office space under lease agreements that expire through 2004.
     Office rental charges amounted to approximately $813,000 and $888,000 of which approximately
     $406,500 and $444,000 was reimbursed by NCUSIF for 2000 and 1999, respectively. In addition, the
     Fund leases office equipment under operating leases with lease terms of less than one year.

     Capital Leases - The Fund leases computer equipment under lease agreements that expire through
     2004.

     The future minimum lease payments as of December 31, 2000, are as follows (in thousands):

                                                                   Operating      Capital
                                                                    Leases        Leases

              2001                                                  $ 832        $ 1,843
              2002                                                    850          1,842
              2003                                                    524            481
              2004                                                    453             24

                     Total                                          $ 2,659        4,190

              Less: Imputed interest                                                (330)

              Present value of net minimum
                lease payments                                                   $ 3,860

     Based on the allocation factor approved by the NCUA Board for 2000, NCUSIF will reimburse the Fund
     for approximately 50% of the future lease payments.

6.   RETIREMENT PLAN

     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (FERS). Both plans are defined benefit retirement
     plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
     Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
     employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions
     between 1% and 10% of their gross pay, and the Fund will match up to 5% of the employees’ gross pay.
     In 2000 and 1999, the Fund’s contributions to the plans were approximately $9,460,000 and $8,304,000,
     respectively, of which approximately $4,730,000 and $4,152,000 were reimbursed by NCUSIF,
     respectively.

     The Fund does not account for the assets of the above plans and does not have actuarial data with
     respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
     amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
     Disability Fund and are not allocated to individual employers.



                                                  Tab 1: 8
7.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):
                                                        December 31, 2000               December 31, 1999
                                                       Carrying     Fair               Carrying     Fair
                                                       Amount      Value               Amount      Value
       Cash and cash equivalents                       $ 9,923       $ 9,923           $ 12,695      $ 12,695
       Due from NCUSIF                                     938           938              1,618         1,618
       Employee advances                                   663           663                816           816
       Other accounts receivable                           153           153                258           258
       Accounts payable                                  3,621         3,621              4,093         4,093
       Obligation under capital lease                    3,860         3,860                 16            16
       Notes payable to NCUSIF                          31,748        31,748             33,161        33,161

8.   CONTINGENCIES

     Field of Membership Litigation - On December 17, 1998, NCUA’s Board issued a final rule
     implementing the Credit Union Membership Access Act (CUMAA), which had amended the Federal
     Credit Union (FCU) Act. On January 18, 1999, a lawsuit was filed by the American Bankers
     Association (ABA), ABA v. NCUA, which challenged this rule on the premise that the rule violates the
     FCU Act, as modified by the CUMAA. On March 10, 1999, the ABA’s request for a preliminary
     injunction was denied. On April 1, 1999, the ABA filed its First Amended Complaint. NCUA filed a
     partial motion to dismiss on April 15, 1999. On March 30, 2000, the Court issued an opinion granting
     NCUA’s Motion to Dismiss as to all counts except one of the ABA’s amended complaint. That count
     has now been dismissed and a Notice of Appeal has been filed with the Court of Appeals. A briefing
     schedule has been issued. In the opinion of management, the ultimate resolution of this matter will not be
     material to NCUA’s financial position.

     Office of Personnel Management Action – The U. S. Office of Personnel Management (OPM)
     referred to the Office of Special Counsel (OSC) its findings contained in a report entitled “Report of a
     Delegated Examining Oversight Review, National Credit Union Administration,” dated June 16-20, 1997
     (the OPM Report). The OSC completed its investigation in 1999 and forwarded its findings to the
     NCUA Board. On February 2, 2000, the NCUA Board proposed personnel actions against certain
     employees. These actions were taken and the employees appealed to the Merit Systems Protection
     Board (MSPB). NCUA’s actions were upheld by the MSPB, and two of the employees have appealed
     those decisions. In the opinion of management, the ultimate resolution of this matter will not be material
     to NCUA’s financial position.

     In one personnel action, NCUA reached a settlement in 2000, whereby it reimbursed certain legal fees
     and paid certain retirement benefits to a former employee. The estimated amount of the settlement,
     $361,000, was recorded as of December 31, 1999.

     Other Matters - In addition, NCUA is currently party to a number of other disputes that involve or may
     involve litigation. In the opinion of management, the ultimate liability with respect to these disputes, if
     any, will not be material to NCUA’s financial position.

                                               * * * * * *



                                                    Tab 1: 9
NATIONAL CREDIT UNION SHARE INSURANCE FUND

Financial Statements for the Years Ended
December 31, 2000 and 1999, and
Independent Auditors' Reports




                                           Tab 2: 1
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund as of
December 31, 2000 and 1999, and the related statements of operations, fund balance and cash flows for the
years then ended. These financial statements are the responsibility of the National Credit Union Share
Insurance Fund’s management. Our responsibility is to express an opinion on these financial statements based
on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Share Insurance Fund as of December 31, 2000 and 1999, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

As discussed in Note 5 to the financial statements, the provisions of the Credit Union Membership Access Act
of 1998 have affected the calculation and timing of dividends from the Fund effective January 1, 2000.

In accordance with Government Auditing Standards, we have also issued our report dated February 16,
2001, on our tests of the National Credit Union Share Insurance Fund’s compliance with certain provisions of
laws, regulations, contracts, and grants, and our consideration of its internal control over financial reporting.
That report is an integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.



February 16, 2001




                                                      Tab 2: 2
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


ASSETS                                                                    2000            1999

  Investments (Note 6)                                              $ 3,482,730     $ 2,487,361
  Cash and cash equivalents                                           1,098,005       1,679,975
  Accrued interest receivable                                            69,261          38,814
  Assets acquired in assistance to insured credit unions                  9,074           9,943
  Capital notes advanced to insured credit unions                           146             325
  Notes receivable - National Credit Union
    Administration Operating Fund (Note 8)                                31,748          33,161
  Other notes receivable                                                     112           1,920
  Fixed assets - net of accumulated depreciation
    and amortization (Note 3)                                               1,796            -

TOTAL ASSETS                                                        $ 4,692,872     $ 4,251,499


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Estimated losses from supervised credit unions (Note 4)           $     54,800    $     69,845
  Estimated losses from asset and merger guarantees (Note 4)                 959             875
  Amounts due to insured shareholders of liquidated credit unions          7,094           8,934
  Due to National Credit Union Administration
    Operating Fund (Note 8)                                                   938          1,618
  Accounts payable                                                              7              49
  Obligations under capital leases (Note 9)                                 1,374            -

             Total liabilities                                            65,172          81,321

COMMITMENTS AND CONTINGENCIES (Notes 4, 8, 9, and 12)

FUND BALANCE:
  Insured credit unions' accumulated contributions                      3,468,932       3,215,634
  Insurance fund balance                                                1,158,768         954,544

             Total fund balance                                         4,627,700       4,170,178

TOTAL LIABILITIES AND FUND BALANCE                                  $ 4,692,872     $ 4,251,499


See notes to financial statements.




                                                  Tab 2: 3
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


                                                       2000        1999

REVENUES:
  Interest                                           $ 268,169   $ 227,281
  Other                                                  1,952       1,850

              Total revenues                          270,121     229,131

EXPENSES (Note 8):
  Administrative expenses (Note 8):
    Employee wages and benefits                        47,054      42,673
    Travel                                              6,950       5,402
    Rent, communications, and utilities                 1,671       1,839
    Contracted services                                 2,744       2,097
    Other                                               7,478       6,381

              Total expenses                           65,897      58,392

EXCESS OF REVENUES OVER EXPENSES                     $ 204,224   $ 170,739


See notes to financial statements.




                                          Tab 2: 4
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)

                                                           Insured
                                                        Credit Unions'   Insurance
                                                        Accumulated        Fund
                                                        Contributions     Balance

BALANCE AT JANUARY 1, 1999                               $ 2,938,503     $ 872,174

  Contributions from insured credit unions                  277,131             -

  Excess of revenues over expenses                              -           170,739

  Dividends to insured credit unions                            -           (88,369)

BALANCE AT DECEMBER 31, 1999                              3,215,634         954,544

  Contributions from insured credit unions                  253,298             -

  Excess of revenues over expenses                              -           204,224

BALANCE AT DECEMBER 31, 2000                             $ 3,468,932     $ 1,158,768


See notes to financial statements.




                                             Tab 2: 5
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)

                                                                               2000          1999

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                           $ 204,224     $ 170,739
 Adjustments to reconcile excess of revenues over
   expenses to cash provided by operating activities:
   Depreciation and amortization                                                   507           -
   Reserves (recoveries) relating to losses from supervised
      credit unions and assets and merger guarantees - net                     (14,961)       (7,948)
   (Increase) decrease in assets:
      Accrued interest receivable                                              (30,447)        1,257
      Assets acquired from credit unions, net                                      869         4,310
      Capital notes advanced to credit unions - net                                179         1,141
      Other notes receivable                                                     1,808          (973)
   (Decrease) increase in liabilities:
      Amounts due to National Credit Union
        Administration Operating Fund                                             (680)         (511)
      Amounts due to insured shareholders of liquidated credit unions           (1,840)        1,322
      Accounts payable                                                             (42)         (505)

              Net cash provided by operating activities                        159,617       168,832

CASH FLOWS FROM INVESTING ACTIVITIES
  Investments, net                                                            (995,369)      339,738
  Collections on note receivable - National Credit
    Union Administration Operating Fund                                          1,413         1,413
  Purchase of fixed assets                                                        (522)          -

              Net cash (used in) provided by investing activities             (994,478)      341,151

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                      253,298       277,131
 Dividends to insured credit unions                                                -         (88,369)
 Principal payments under capital lease obligation                                (407)          -

              Net cash provided by financing activities                        252,891       188,762

NET (DECREASE) INCREASE IN CASH AND CASH
  EQUIVALENTS                                                                 (581,970)      698,745

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                                 1,679,975       981,230

CASH AND CASH EQUIVALENTS, END OF YEAR                                      $ 1,098,005   $ 1,679,975


SUPPLEMENTAL DISCLOSURES OF NONCASH
  FINANCING ACTIVITIES:
  A capital lease obligation of $1,781 was incurred when the Fund entered
    into a lease for new equipment.


See notes to financial statements.




                                                  Tab 2: 6
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2000 AND 1999


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (the Fund) was created by the Public Law 91-468
     (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369 as
     discussed in Note 4. The Fund was established as a revolving fund in the United States Treasury under
     the management of the National Credit Union Administration (NCUA) Board for the purpose of insuring
     member share deposits in all federal credit unions and in qualifying state credit unions that request
     insurance. The maximum amount of insurance is $100,000 per shareholder account.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by
     the Fund. Insured credit unions are required to report certain financial and statistical information to
     NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
     periodic examination by NCUA. Information derived through the supervisory and examination process
     provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
     require assistance from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
     if these difficulties are considered by the Fund to be temporary or correctable. This special assistance
     may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash
     assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a merger
     partner may be sought. If the assistance or merger alternatives are not practical, the credit union is
     liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
     union is permitted to cease making additions to its regular reserve and, in more severe cases, to
     commence charging operating losses against its regular reserve. When all reserves have been depleted
     by the credit union, the fund may provide a reserve guarantee account in the amount of the reserve
     deficit. In addition, the Fund may provide cash assistance in the form of share deposits and capital notes,
     or may purchase assets from the credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require Fund
     assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
     Fund, and/or guarantees of the values of certain assets (primarily loans).

     When a credit union is no longer able to continue operating and the merger and assistance alternatives
     are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
     up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




                                                    Tab 2: 7
2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents and Investments - Title II of the Federal Credit Union Act limits the Fund’s
     investments to United States Government securities or securities guaranteed as to both principal and
     interest by the United States Government. Cash equivalents are highly liquid investments with original
     maturities of three months or less. All investments are classified as held-to-maturity under Statement of
     Financial Standards No. 115, “Accounting for Certain Investments in Debt and Equity Securities.”
     Accordingly, the Fund records investments at amortized cost.

     Depreciation and Amortization - Furniture and equipment and capital leases are recorded at cost.
     Depreciation and amortization are computed by the straight-line method over the estimated useful lives of
     the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
     Estimated useful lives are three years for the furniture and equipment and capital leases.

     Advances to Insured Credit Unions - The Fund provides cash assistance in the form of interest and
     non-interest-bearing capital notes (carried at face value), share deposits, and loans to certain credit
     unions to assist them in continuing their operations.

     Assets Acquired from Credit Unions - The Fund acquires the assets of liquidating credit unions pending
     their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
     union assets. In addition, the Fund may provide cash assistance by acquiring nonperforming assets of a
     credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
     Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated
     net realizable value.

     Premium Revenue - The Fund may assess each insured credit union a premium charge for insurance in
     an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
     insurance year if the Fund’s equity ratio is less than 1.3 percent. The NCUA Board waived the 2000
     and 1999 share insurance premiums (see Note 5).

     Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

     a.   Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate
          fair values.

     b.   Investments - The fair value for investments is the quoted market value.

     c.   Capital Notes and Other Notes Receivable - It is not practicable to estimate the fair value of
          these assets as there is no secondary market, and the Fund has the ability and the intention to hold
          these notes to maturity.

     d.   Other - Accrued interest receivable, notes receivable from NCUA Operating Fund, payable to
          NCUA Operating Fund, lease obligations, due to insured shareholders of liquidated credit unions and
          other accounts payable are recorded at book values, which approximate the respective fair values.



                                                   Tab 2: 8
     Use of Estimates - The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                            December 31,
                                                                                           2000     1999
       Furniture and equipment                                                           $ 522        $ -
       Capital leases                                                                     1,781         -
                     Total                                                                 2,303         -
       Less: Accumulated depreciation and amortization                                       507         -
              Total fixed assets - net                                                   $ 1,796      $ -

4.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory and
     examination process. The estimated losses from these supervised credit unions are determined by
     management on a specified case basis. Management also evaluates overall economic trends and
     monitors potential system-wide risk factors such as increasing levels of consumer debt, bankruptcie s, and
     delinquencies. Nonspecified case reserve requirements are determined based upon an assessment of
     insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from the
     disposition of the assets of failed credit unions.

     Total insurance in force as of December 31, 2000, is $355 billion, which includes natural person and
     corporate credit unions. The total net reserves for identified and anticipated losses from supervised
     credit unions’ failures is $56 million at December 31, 2000. Should there be no recoveries provided
     during the resolution process, possible additional reserves for $27.3 million would be required.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
     loans) to third-party purchasers or to credit unions to facilitate mergers. Such guarantees totaled
     approximately $2,362,000 and $1,281,000 at December 31, 2000 and 1999, respectively. The estimated
     losses from asset and merger guarantees are determined by management on a case-by-case evaluation.

     In addition, the Fund guarantees loans made by the NCUA’s Central Liquidity Facility (CLF). Total line-
     of-credit guarantees of credit unions at December 31, 2000 and 1999, are approximately $5,945,000 and
     $6,085,000, respectively. The total balances outstanding under these line-of-credit guarantees at
     December 31, 2000 and 1999, are approximately $1,674,000 and $200,000, respectively.




                                                   Tab 2: 9
     The activity in the reserves for estimated losses from supervised credit unions and asset and merger
     guarantees was as follows (in thousands):

                                                                                            Year Ended
                                                                                           December 31,
                                                                                         2000        1999

           BEGINNING BALANCE                                                         $ 70,720       $ 78,668

            Insurance losses                                                           (19,774)       (14,324)
            Recoveries                                                                   4,813          6,376

           ENDING BALANCE                                                            $ 55,759       $ 70,720

5.   FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the Fund’s
     capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
     with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
     the case of an insured credit union with total assets of not more than $50,000,000; and (ii) semiannually,
     in the case of an insured credit union with total assets of $50,000,000 or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. Through 1999, under Title VIII of Public
     Law 98-369, each credit union’s deposit was adjusted annually and was based on member share deposits
     outstanding as of December 31 of the preceding year. The 1% contribution will be returned to the
     insured credit union in the event that its insurance coverage is terminated, or is obtained from another
     source, or the operations of the Fund are transferred from the NCUA Board.

     The CUMAA mandates certain premium charges from insured credit unions and distributions from the
     Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
     equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro rata distributions
     to insured credit unions after each calendar year are required if, as of year-end:

     (i)    Any loans to the Fund from the Federal Government, and any interest on those loans, have been
            repaid;

     (ii)   The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
            ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
            and

     (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

     The NCUA Board has determined the normal operating level to be 1.33% as of December 31, 2000,
     which considers an estimated $31.9 million in deposit adjustments to be billed to insured credit unions in
     2001 based upon total insured shares as of December 31, 2000.




                                                   Tab 2: 10
     Through 1999, the law required that, upon receipt of the 1% contribution, the total fund balance must be
     maintained at a normal operating level as determined by the NCUA Board. The NCUA Board
     determined this level to be 1.30% of insured shares at December 31, 1999.

     The NCUA Board declared and paid dividends of approximately $88,370,000 during 1999. The
     CUMAA mandates the use of year-end reports of insured shares in the calculation of the specified
     ratios, and thus dividends related to 2000 will be declared and paid in 2001 based on insured shares as of
     December 31, 2000, as reported by the insured credit unions. Total insured shares at December 31, 2000
     and 1999, were $355 billion and $337 billion, respectively.

6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.

     Investments consist of the following (in thousands):

                                                              December 31, 2000
                                        Yield to                  Gross       Gross                Estimated
                                       Maturity     Amortized   Unrealized Unrealized               Market
                                       at Market      Cost        Gains       Losses                 Value

       U.S. TREASURY
         SECURITIES:
         Maturities up to one year        6.28 % $ 1,098,748         $ 3,565       $      -       $ 1,102,313
         Maturities after one year
            through five years            6.07 %     2,383,982           36,393           -        2,420,375

                      Total                        $ 3,482,730       $ 39,958      $      -       $ 3,522,688

                                                              December 31, 1999
                                        Yield to                  Gross       Gross                Estimated
                                       Maturity     Amortized   Unrealized Unrealized               Market
                                       at Market      Cost        Gains       Losses                 Value

       U.S. TREASURY
         SECURITIES:
         Maturities up to one year        5.98 % $ 998,667           $     489     $      -       $ 999,156
         Maturities after one year
            through five years            6.42 %     1,488,694             -           (16,882)    1,471,812

                      Total                        $ 2,487,361       $     489     $ (16,882)     $ 2,470,968

     Total investment purchases during 2000 and 1999 were approximately $1.9 billion and $1.1 billion,
     respectively. Investment maturities during 2000 and 1999 were approximately $0.9 billion and $1.5
     billion, respectively. The Fund has the capability and management has the intention to hold all
     investments held at December 31, 2000 and 1999, to maturity. There were no investment sales during
     2000 and 1999.




                                                   Tab 2: 11
7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The CLF is
     authorized to make advances to the Fund under terms and conditions established by the NCUA Board.
     No borrowings were obtained from these sources during 2000 and 1999.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board derived from a study of actual usage conducted by the management of these Funds. The
     allocation factor was 50% to the Fund and 50% to the NCUA Operating Fund for 2000 and 1999. On
     November 16, 2000, the NCUA Board voted to increase the allocation factor to the Fund for 2001 from
     50% to 66.72%. The cost of services provided by the NCUA Operating Fund was approximately
     $63,780,000 and $57,319,000 for 2000 and 1999, respectively, and includes pension contributions of
     approximately $4,730,000 and $4,152,000 to the Civil Service Retirement System and Federal Employees
     Retirement System defined benefit retirement plans for 2000 and 1999, respectively.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
     Fund. Interest received was approximately $76,000 for 2000 and $74,000 for 1999. The note receivable
     balance at December 31, 2000 and 1999, was approximately $1,242,000 and $1,314,000, respectively.

     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund
     as needed to fund the costs of constructing a new building. Interest income was approximately
     $1,857,000 and $1,788,000 for 2000 and 1999, respectively. The note receivable balance at
     December 31, 2000, was approximately $30,506,000.

     The above notes mature as follows (in thousands):

                                                                    Unsecured      Secured
                                                                    Term Note     Term Note        Total
       2001                                                          $    72       $ 1,341      $ 1,413
       2002                                                               72         1,341        1,413
       2003                                                               72         1,341        1,413
       2004                                                               72         1,341        1,413
       2005                                                               72         1,341        1,413
       Thereafter                                                        882        23,801       24,683
                     Total                                           $ 1,242       $ 30,506     $ 31,748

     The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The
     average interest rate during 2000 and 1999 was approximately 5.95% and 5.52%, respectively. At
     December 31, 2000, the rate was 6.05%.

     The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
     that expire through 2004. Based on the allocation factor approved by the NCUA Board for 2000, the
     Fund will reimburse the NCUA Operating Fund for approximately 50% of the future lease payments.


                                                 Tab 2: 12
     The cost of services provided by the NCUA Operating Fund includes rental charges of approximately
     $406,500 and $444,000 for 2000 and 1999, respectively. The amounts were derived using the current
     annual allocation factor.

     The NCUA Operating Fund’s total future minimum lease payments as of December 31, 2000, are as
     follows (in thousands):

                                      2001                            $ 832
                                      2002                              850
                                      2003                              524
                                      2004                              453

                                      Total                           $ 2,659

9.   LEASE COMMITMENTS

     Description of Leasing Agreements - The Fund has entered into lease agreements with vendors for the
     lease of equipment that includes computers, laptops, and printers.

     Capital Leases - The Fund leases computer equipment under lease agreements that expire through
     2004.

     The following is a schedule of future minimum lease payments as of December 31, 2000, are as follows
     (in thousands):

       2001                                                                                         $ 659
       2002                                                                                           659
       2003                                                                                           164
       Total                                                                                         1,482
       Less: Imputed interest                                                                         (135)
       Present value of net mimimum lease payments                                                  $ 1,347

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:




                                                 Tab 2: 13
                                             December 31, 2000                    December 31, 1999
                                           Carrying        Fair                 Carrying        Fair
                                           Amount         Value                 Amount         Value
     Investments                        $ 3,482,730      $ 3,522,688          $ 2,487,361      $ 2,470,968
     Cash and cash equivalents            1,098,005        1,098,005            1,679,975        1,679,975
     Accrued interest receivable             69,261           69,261               38,814           38,814
     Notes receivable - NCUA
       Operating Fund                        31,748           31,748              33,161           33,161
     Amounts due to insured
       shareholders of liquidated
       credit unions                          7,094             7,094               8,934            8,934
     Due to NCUA Operating Fund                 938               938               1,618            1,618
     Accounts payable                             7                 7                   49               49
     Lease obligation                         1,374             1,374                 -                -

11. CONCENTRATIONS

   There are no significant concentrations of member share deposits within any region of the United States.
   Concentrations of member shares do exist within the manufacturing, governmental, and educational
   industries.

12. CONTINGENCIES

   Field of Membership Litigation - On December 17, 1998, NCUA’s Board issued a final rule
   implementing the Credit Union Membership Access Act (CUMAA), which had amended the Federal
   Credit Union (FCU) Act. On January 18, 1999, a lawsuit was filed by the American Bankers
   Association (ABA), ABA v. NCUA, which challenged this rule on the premise that the rule violates the
   FCU Act as modified by the CUMAA. On March 10, 1999, the ABA’s request for a preliminary
   injunction was denied. On April 1, 1999, the ABA filed its First Amended Complaint. NCUA filed a
   partial motion to dismiss on April 15, 1999. On March 30, 2000, the Court issued an opinion granting
   NCUA’s Motion to Dismiss as to all counts except one of the ABA’s amended complaint. That count
   has now been dismissed and a Notice of Appeal has been filed with the Court of Appeals. A briefing
   schedule has been issued. In the opinion of management, the ultimate resolution of this matter will not be
   material to NCUA’s financial position.

   Office of Personnel Management Action - The U.S. Office of Personnel Management (OPM)
   referred to the Office of Special Counsel (OSC) its findings contained in a report entitled “Report of a
   Delegated Examining Oversight Review, National Credit Union Administration,” dated June 16-20, 1997
   (the OPM Report). The OSC completed its investigation in 1999 and forwarded its findings to the
   NCUA Board. On February 2, 2000, the NCUA Board proposed personnel actions against certain
   employees. These actions were taken and the employees appealed to the Merit Systems Protection
   Board (MSPB). NCUA’s actions were upheld by the MSPB, and two of the employees have appealed
   those decisions. In the opinion of management, the ultimate resolution of this matter will not be material
   to NCUA’s financial position.

   In one personnel action, NCUA reached a settlement in 2000, whereby it reimbursed certain legal fees
   and paid certain retirement benefits to a former employee. The estimated amount of the settlement,
   $361,000, was recorded as of December 31, 1999.




                                                Tab 2: 14
Other Matters - In addition, NCUA is currently party to a number of other disputes that involve or may
involve litigation. In the opinion of management, the ultimate liability with respect to these disputes, if
any, will not be material to NCUA’s financial position.

                                          * * * * * *




                                              Tab 2: 15
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

Financial Statements for the Years Ended December 31,
2000 and 1999, and Independent Auditors’ and
Accountants’ Reports




                                        Tab 3: 1
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2000 and 1999, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 2000 and 1999, and the
results of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 16,
2001, on our examination of the National Credit Union Administration Central Liquidity Facility’s assertions as
to the effectiveness of its internal control over financial reporting, and our report dated February 16, 2001, on
our tests of its compliance with certain provisions of laws, regulations, contracts, and grants. Those reports
are integral parts of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in considering the results of our audit.



February 16, 2001




                                                     Tab 3: 2
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


ASSETS                                                         2000        1999

  Cash (Note 11)                                          $       14    $ 977,248
  Investments with U.S. Central Credit
    Union (Notes 5, 8, 9, and 11)                             919,509      909,884
  Loans to members (Notes 4 and 11)                              -          58,600
  Accrued interest receivable (Note 11)                        12,968       16,436

TOTAL ASSETS                                              $ 932,491     $ 1,962,168


LIABILITIES AND MEMBERS' EQUITY

LIABILITIES:
  Federal Financing Bank notes payable (Notes 6 and 11)   $      -      $ 1,041,000
  Member deposits (Notes 7 and 11)                             28,807        28,020
  Accounts payable and other liabilities (Note 11)                107           731

              Total liabilities                                28,914    1,069,751

MEMBERS' EQUITY:
 Capital stock - required (Note 7)                            892,175      880,953
 Retained earnings                                             11,402       11,464

              Total members' equity                           903,577      892,417

TOTAL LIABILITIES AND MEMBERS' EQUITY                     $ 932,491     $ 1,962,168


See notes to financial statements.




                                               Tab 3: 3
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)


                                                         2000       1999

REVENUE - Investment income                            $ 58,460   $ 50,021

EXPENSES (Note 10):
  Operating expenses:
    Group agent service fee                                   2         1
    Personnel services                                     123        124
    Other services                                           39        31
   Rent, communications, and utilities                        9        14
    Personnel benefits                                       33        28
    Supplies and materials                                    5         4
    Employee travel                                        -            6
   Printing and reproduction                                  4         6

              Total operating expenses                     215        214

  Interest - Federal Financing Bank notes                1,743      5,862
  Interest - member deposits                               676        699

              Total expenses                             2,634      6,775

EXCESS OF REVENUE OVER EXPENSES                        $ 55,826   $ 43,246


See notes to financial statements.




                                            Tab 3: 4
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS' EQUITY
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)

                                                     Capital     Retained
                                                     Stock       Earnings

BALANCE AT JANUARY 1, 1999                          $ 768,298    $ 11,511

  Issuance of required capital stock                 113,124         -

  Redemption of required capital stock                  (469)        -

  Dividends                                              -        (43,293)

  Excess of revenue over expenses                                  43,246

BALANCE AT DECEMBER 31, 1999                         880,953       11,464

  Issuance of required capital stock                  16,657         -

  Redemption of required capital stock                 (5,435)       -

  Dividends                                              -        (55,888)

  Excess of revenue over expenses                        -         55,826

BALANCE AT DECEMBER 31, 2000                        $ 892,175    $ 11,402


See notes to financial statements.




                                         Tab 3: 5
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2000 AND 1999
(Dollars in Thousands)

                                                                          2000              1999

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenue over expenses                                   $      55,826     $     43,246
 Adjustments to reconcile excess of revenue over expenses
    to net cash provided by operating activities:
    Decrease (increase) in accrued interest receivable                      3,468            (8,203)
    (Decrease) increase in accounts payable and other liabilities            (624)              672

              Net cash provided by operating activities                    58,670           35,715

CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchase of investments                                                  (9,625)        (112,479)
 Loan principal repayment (disbursement)                                   58,600          (58,600)

              Net cash provided by (used in) investing activities          48,975         (171,079)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Additions to member deposits                                               3,426            4,620
  Issuance of required capital stock                                        16,657          113,124
  Dividends                                                                (55,888)         (43,293)
  Withdrawal of member deposits                                             (2,639)          (2,382)
 Redemption of required capital stock                                       (5,435)            (469)
  (Repayment) proceeds from issuing notes                               (1,041,000)       1,041,000

              Net cash (used in) provided by financing activities       (1,084,879)       1,112,600

NET (DECREASE) INCREASE IN CASH                                          (977,234)         977,236

CASH, BEGINNING OF YEAR                                                   977,248               12

CASH, END OF YEAR                                                   $            14   $ 977,248


SUPPLEMENTAL DISCLOSURE OF CASH
  FLOW INFORMATION:
  Interest paid                                                     $       2,396     $       5,209


See notes to financial statements.



                                                  Tab 3: 6
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2000 AND 1999


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
     Credit Union Central Liquidity Facility Act (the Act). The CLF is designated as a mixed-ownership
     government corporation under the Government Corporation Control Act. The CLF exists within the
     National Credit Union Administration (NCUA) and is managed by the National Credit Union
     Administration Board. The CLF became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting - The CLF maintains its accounting records on the accrual basis of accounting.

     Allowance for Loan Losses - Loans to members are made on both a short-term and long-term basis.
     For all loans, the CLF either obtains a security interest in the assets of the borrower or in some cases
     receives the guarantee of the NCUA Share Insurance Fund.

     The CLF evaluates the collectibility of its loans to members through examination of the financial condition
     of the individual borrowing credit unions and the credit union industry in general.

     Investments - The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see
     Notes 5 and 8). All other investments are short-term with no maturities in excess of one year. All
     investments are classified as held-to-maturity under Statement of Financial Accounting Standards No.
     115, “Accounting for Certain Investments in Debt and Equity Securities.” Accordingly, the CLF records
     investments at amortized cost.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

     a.   Cash - The carrying amounts for cash approximate fair value.

     b.   Investments - Securities held have maturities of one year or less and, as such, the carrying amounts
          approximate fair value.

     c.   Loans - For loans advanced to member credit unions, the carrying amounts approximate fair value.

     d.   Member Deposits - Funds maintained with the CLF in excess of required capital amounts are
          recorded as member deposits. These deposits are due upon demand and the carrying amounts
          approximate the fair value.


                                                   Tab 3: 7
     e.     FFB Notes Payable - For notes issued to the Federal Financing Bank, the carrying amounts
            approximate fair value.

     f.     Other - Accrued interest receivable and accounts payable and other liabilities are recorded at book
            values, which approximate the respective fair values.

     Use of Estimates - The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
     Congressional approval and the CLF may not make loans to members for the purpose of expanding
     credit union loan portfolios. The CLF’s investments are restricted to obligations of the United States
     Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
     in credit unions. Borrowing is Congressionally limited to twelve times equity and capital subscriptions on-
     call. However, there is a Congressional limitation of $1.5 billion on funds that are borrowed and then
     loaned out at any one point in time.

     At December 31, 2000 and 1999, the CLF was in compliance with its borrowing authority.

4.   LOANS TO MEMBERS

     There were no loans outstanding at December 31, 2000. The CLF can provide members with extended
     loan commitments. The balance of outstanding loans as of December 31, 1999, was $58,600,000.
     Interest rates of these loans ranged from 5.239% to 5.4878% and their maturities extended through
     March 2000.

     There were no outstanding loan commitments at either December 31, 2000 and 1999 (see Note 12).

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):

                                                                                         December 31,
                                                                                       2000        1999
          U.S. Central Credit Union (see Note 8):
            Redeposit Account                                                       $ 849,810      $ 836,014
            Share accounts                                                             69,699         73,870
                                                                                    $ 919,509      $ 909,884




                                                    Tab 3: 8
6.   BORROWING AUTHORITY

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the event
     that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the liquidity
     needs of credit unions. This authority to lend is limited to such extent and in such amounts as are
     provided in advance by Congressional Appropriation Acts. On December 23, 1981, the President signed
     PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may be provided
     by the Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit unions. On
     May 21, 1999, the President signed a midyear spending bill (HR 1141) that authorized the CLF to fully
     utilize its borrowing authority under the Federal Credit Union Act, or approximately $20.7 billion.
     Borrowings would be from the Federal Financing Bank with interest generally payable upon maturity.
     See Note 12.

7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member credit
     unions. Regular members’ required subscription amounts equal one-half of one percent of their paid-in
     and unimpaired capital and surplus, one-half of which amount is required to be remitted to the CLF.
     Agent members’ required subscription amounts equal one-half of one percent of the paid-in and
     unimpaired capital and surplus of all of the credit unions served by the agent member, one-half of which
     is required to be remitted to the CLF. In both cases, the remaining one-half of the subscription is
     required to be held in liquid assets by the member credit unions subject to call by the National Credit
     Union Administration Board. These unremitted subscriptions are not reflected in the CLF’s financial
     statements. Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in
     and unimpaired capital and surplus. Dividends are declared and paid on required capital stock.

     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
     required capital stock.

8.   U.S. CENTRAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union (USC)
     on behalf of 29 of its corporate credit union members. At December 31, 2000 and 1999, $849,810,000
     and $836,014,000, respectively, of the required portion of subscribed capital stock was purchased from
     the CLF by USC on behalf of its member credit unions.

     In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all but
     $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996, the
     CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
     2000 and 1999, approximately $919,509,000 and $909,884,000, respectively, were invested in USC share
     accounts at 5.92% and 5.67%, respective yields.

9.   CONCENTRATION OF CREDIT RISK

     At December 31, 2000 and 1999, the CLF has a concentration of credit risk for its investments on
     deposit with USC of approximately $919,509,000 and $909,884,000 (see Notes 5 and 8).



                                                   Tab 3: 9
10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

    The National Credit Union Administration provides the CLF with data processing and other
    miscellaneous services and supplies. In addition, the National Credit Union Administration pays CLF’s
    employees’ salaries and benefits as well as the CLF’s portion of monthly building operating costs. The
    CLF reimburses the National Credit Union Administration on a monthly basis for these items. Total
    reimbursements for the years ended December 31, 2000 and 1999, amounted to approximately $213,000
    for each year.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

    The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
    thousands):

                                                December 31, 2000               December 31, 1999
                                              Carrying      Fair              Carrying        Fair
                                              Amount       Value              Amount         Value

     Cash                        $       14 $       14                      $ 977,248        $ 977,248
     Investments                   919,509    919,509                          909,884          909,884
     Loans to members                  -          -                             58,600           58,600
     Accrued interest receivable    12,968     12,968                           16,436           16,436
     FFB notes payable                 -          -                          1,041,000        1,041,000
     Member deposits                28,807     28,807                           28,020           28,020
     Accounts payable and
       other liabilities               107        107                               731              731
12. SHORT–TERM REVOLVING CREDIT FACILITY

    On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
    Federal Financing Bank (FFB) on behalf of the CLF. The agreement provided for a commitment amount
    of $20.7 billion and expired on September 30, 2000. Under this agreement, the CLF could request
    advances from FFB on an anticipatory basis in order to meet possible extraordinary and unpredictable
    liquidity-need loan demands from member natural person credit unions resulting from the century date
    change conversion.

    As of December 31, 1999, the CLF had outstanding advances aggregating $1.041 billion, of which $41
    million had in turn been loaned to member credit unions, maturing in March 2000. The remaining
    $1 billion was repaid to FFB during January 2000. Interest rates on the outstanding advances ranged
    from 5.23% to 5.597% as of December 31, 1999.

                                            * * * * * *




                                                Tab 3: 10
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING
LOAN FUND

Financial Statements for the Years Ended
December 31, 2000 and 1999, and Independent
Auditors' Reports




                                       Tab 4: 1
INDEPENDENT AUDITORS' REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of December 31, 2000 and 1999, and the related statements
of operations, changes in fund balance, and cash flows for the years then ended. These financial statements
are the responsibility of the CDRLF’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Fund as of December 31,
2000 and 1999, and the results of its operations and its cash flows for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 16,
2001, on our consideration of the National Credit Union Administration Community Development Revolving
Loan Fund’s internal control over financial reporting and on our tests of its compliance with certain provisions
of laws, regulations, contracts, and grants. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.



February 16, 2001




                                                    Tab 4: 2
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
DECEMBER 31, 2000 AND 1999

ASSETS                                                  2000             1999

  Cash and cash equivalents (Note 2)              $ 1,208,609      $ 4,320,218
  Loans - net of allowance (Note 4)                10,431,985        7,344,047
  Interest receivable                                  83,000           52,815

TOTAL ASSETS                                      $ 11,723,594     $ 11,717,080


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accrued technical assistance                    $     104,371    $     116,097

              Total liabilities                         104,371          116,097

FUND BALANCE:
  Revolving fund capital (Note 3)                     10,996,200       10,996,200
  Accumulated earnings                                   623,023          604,783

              Total fund balance                      11,619,223       11,600,983

TOTAL LIABILITIES AND FUND BALANCE                $ 11,723,594     $ 11,717,080


See notes to financial statements.




                                       Tab 4: 3
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 2000 AND 1999

                                                  2000            1999

REVENUES:
  Interest on cash equivalents                  $ 82,274     $ 118,571
  Interest on loans                              228,745       220,483
  Provision for loan losses                       (21,911)     (11,204)

             Total                                289,108        327,850

EXPENSES:
  Technical assistance                           (270,868)       (305,546)

             Total                               (270,868)       (305,546)

EXCESS OF REVENUES OVER EXPENSES                $ 18,240     $    22,304


See notes to financial statements.




                                     Tab 4: 4
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 2000 AND 1999

                                                              2000           1999

FUND BALANCE, BEGINNING OF YEAR                           $ 11,600,983   $10,582,479

   Appropriation - revolving fund capital (Note 3)                -          996,200

   Excess of revenues over expenses                            18,240         22,304

FUND BALANCE, END OF YEAR                                 $ 11,619,223   $ 11,600,983


See notes to financial statements.




                                               Tab 4: 5
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 2000 AND 1999

                                                                          2000              1999

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenues over expenses                                  $      18,240     $      22,304
  Adjustments to reconcile the excess of revenues
    over expenses to net cash used in
    operating activities:
    Provision for loan losses                                              21,911            11,203
    (Increase) decrease in interest receivable                            (30,185)            9,616
    Decrease in accrued technical assistance                              (11,726)          (74,463)

              Net cash used in operating activities                         (1,760)         (31,340)

CASH FLOWS FROM INVESTING ACTIVITIES:
  Loan principal repayments                                              2,178,151         2,186,727
  Loan disbursements                                                    (5,288,000)       (1,875,000)

              Net cash (used in) provided by investing activities       (3,109,849)         311,727

CASH FLOWS FROM FINANCING ACTIVITIES:
  Appropriation - revolving fund capital                                      -             996,200

              Net cash provided by financing activities                       -             996,200

NET (DECREASE) INCREASE IN CASH AND
  CASH EQUIVALENTS                                                      (3,111,609)       1,276,587

CASH AND CASH EQUIVALENTS,
  BEGINNING OF YEAR                                                     4,320,218         3,043,631

CASH AND CASH EQUIVALENTS, END OF YEAR                              $ 1,208,609       $ 4,320,218


See notes to financial statements.




                                                Tab 4: 6
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 2000 AND 1999


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (CDRLF) was established by an
     act of Congress (Public Law 96-124, November 20, 1979) to stimulate economic development in low-
     income communities. The National Credit Union Administration (NCUA) and the Community Services
     Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations, governing administration of
     the Fund, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the Department of
     Health and Human Services (HHS). Because HHS never promulgated final regulations governing the
     administration of the CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
     of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of the CDRLF is to stimulate economic activities in the communities served by low-income
     credit unions which will result in increased income, ownership and employment opportunities for low-
     wealth residents and other economic growth. The policy of NCUA is to revolve the loans to qualifying
     credit unions as often as practical in order to gain maximum impact on as many participating credit unions
     as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting - The CDRLF reports its financial statements on the accrual basis of accounting.

     Cash Equivalents - The Federal Credit Union Act permits the CDRLF to make investments in United
     States Government Treasury securities. All investments in 2000 and 1999 were cash equivalents and are
     stated at cost which approximates market. Cash equivalents are highly liquid investments with original
     maturities of three months or less.

     Allowance for Loan Losses - The CDRLF records a provision for estimated loan losses. Loans
     considered to be uncollectible are charged to the allowance for loan losses. Management continually
     evaluates the adequacy of the allowance for loan losses based upon prevailing circumstances and an
     assessment of collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-
     performing loans when management believes collectibility is doubtful. At December 31, 2000 and 1999,
     there were no nonaccrual loans.

     Salary and Operating Expenses - NCUA provides certain general and administrative support to the
     CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is


                                                 Tab 4: 7
     not allocated to the CDRLF. Consequently, the results of operations would be significantly different if
     the CDRLF were required to pay these expenses.

     Use of Estimates - The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management's estimates.

3.   GOVERNMENT REGULATIONS

     The CDRLF is subject to various Federal laws and regulations. Lending is limited by Congress to a total
     of the $10,996,200 appropriated for the CDRLF plus accumulated earnings. Included in this $10,996,200
     is $2,000,000 that was made available to the CDRLF during 1998 in accordance with Public Law 105-
     276, and an additional $996,200 that was made available to the CDRLF during 1999 in accordance with
     Public Law 106-74. Federally chartered and state-chartered credit unions may participate in the
     CDRLF’s community loan Fund. Loans may be made to predominantly low-income credit unions as
     defined by the NCUA and are recorded in the participant's accounting records as nonmember deposits.
     As nonmember deposits, the NCUA Share Insurance Fund (NCUSIF) may insure these loans to
     participating credit unions in an amount not to exceed $100,000 per credit union. The covered amount of
     loans recorded as nonmember deposits by participating credit unions insured by the NCUSIF totaled
     approximately $6,227,000 and $4,998,000 at December 31, 2000 and 1999, respectively.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between January 1,
     1995, and December 31, 1998, carry a fixed interest rate of 3%; and loans issued after January 1, 1999,
     carry a fixed rate of 2%. Interest and principal are repaid on a semiannual basis beginning six months and
     one year, respectively, after the initial distribution of the loan. The maximum term of each loan is five
     years. Participating credit unions are required to match the value of the loan within one year of the date of
     approval of the loan.

4.   LOANS
     Loans outstanding at December 31, 2000, are scheduled to be repaid as follows:

           2001                                                                                 $ 3,055,804
           2002                                                                                   2,605,900
           2003                                                                                   2,125,100
           2004                                                                                   1,492,100
           2005                                                                                   1,353,800

                                                                                                 10,632,704
            Less: Allowance for loan losses                                                         (200,719)
            Net loans outstanding                                                               $ 10,431,985




                                                 Tab 4: 8
     Changes in the allowance for loan losses are summarized below:

                                                                                     2000              1999
       Balance, beginning of year                                                $ 178,808       $ 167,604
       Provision for loan losses                                                    21,911          11,204
       Balance, end of year                                                      $ 200,719       $ 178,808
5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2000 and 1999, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve predominantly
     low-income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Statement of Financial Accounting Standards No. 107, “Disclosures about Fair
     Value of Financial Instruments.” The methods and assumptions used in estimating the fair value
     disclosures for financial instruments are as follows:

     Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance - Are recorded at book values, which
     approximate the respective fair values.

     Loans - The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus
     two percent (11.5% at December 31, 2000 and 10.5% at December 31, 1999).

     The carrying amount and the estimated fair value of the CDRLF's financial instruments are as follows:

                                                  December 31, 2000                    December 31, 1999
                                                Carrying     Estimated               Carrying    Estimated
                                                Amount       Fair Value              Amount      Fair Value
       Assets:
         Cash and cash equivalents          $ 1,208,609        $ 1,208,609       $ 4,320,218       $ 4,320,218
          Interest receivable               $     83,000       $   83,000        $     52,815      $     52,815
          Loans                             $ 10,632,704       $ 8,596,456       $ 7,522,855       $ 6,324,112
          Allowance for loan losses             (200,719)         (200,719)         (178,808)         (178,808)
          Loans, net of allowance           $ 10,431,985       $ 8,395,737       $ 7,344,047       $ 6,145,304
        Liabilities:
            Accrued technical assistance    $ 104,371          $ 104,371      $ 116,097         $ 116,097
     It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing the carrying
     amount in full.

                                                * * * * * *




                                                  Tab 4: 9
